<html>
<title> - FILM SCREENING OF"AGE OF DELIRIUM"</title>
<body><pre>[Joint House and Senate Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


                                          

  
113th Congress                              Printed for the use of the
1st Session           Commission on Security and Cooperation in Europe
______________________________________________________________________
 

                       FILM SCREENING OF ``AGE OF 
                                DELIRIUM''

        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                





                          JULY 23, 2013


                         Briefing of the
          Commission on Security and Cooperation in Europe
______________________________________________________________________

                         Washington: 2015
  





           Commission on Security and Cooperation in Europe
                    234 Ford House Office Building
                         Washington, DC 20515
                             202-225-1901
                         <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="54372737311439353d387a3c3b2127317a333b22">[email&#160;protected]</a>
                         http://www.csce.gov




                 Legislative Branch Commissioners


          SENATE                                HOUSE

BENJAMIN L. CARDIN, Maryland,          CHRISTOPHER SMITH, New Jersey,
  Chairman                               Co-Chairman
SHELDON WHITEHOUSE, Rhode Island       JOSEPH PITTS, Pennsylvania
TOM UDALL, New Mexico                  ROBERT ADERHOLT, Alabama
JEANNE SHAHEEN, New Hampshire          MICHAEL BURGESS, Texas
RICHARD BLUMENTHAL, Connecticut        ALCEE HASTINGS, Florida
ROGER WICKER, Mississippi              LOUISE McINTOSH SLAUGHTER,
SAXBY CHAMBLISS, Georgia                 New York
JOHN BOOZMAN, Arkansas                 MIKE McINTYRE, North Carolina
                                       STEVE COHEN, Tennessee

                                 (ii)
  




           *         *         *         *         *

ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE

The Helsinki process, formally titled the Conference on Security and 
Cooperation in Europe, traces its origin to the signing of the Helsinki 
Final Act in Finland on August 1, 1975, by the leaders of 33 European 
countries, the United States and Canada. As of January 1, 1995, the 
Helsinki process was renamed the Organization for Security and 
Cooperation in Europe (OSCE). The membership of the OSCE has expanded 
to 56 participating States, reflecting the breakup of the Soviet 
Union, Czechoslovakia, and Yugoslavia.

The OSCE Secretariat is in Vienna, Austria, where weekly meetings of 
the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.

Although the OSCE continues to engage in standard setting in the fields 
of military security, economic and environmental cooperation, and human 
rights and humanitarian concerns, the Organization is primarily focused 
on initiatives designed to prevent, manage and resolve conflict within 
and among the participating States. The Organization deploys numerous 
missions and field activities located in Southeastern and Eastern 
Europe, the Caucasus, and Central Asia. The website of the OSCE is: 
<www.osce.org>.

           *         *         *         *         *

ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE


The Commission on Security and Cooperation in Europe, also known as the 
Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.

The Commission consists of nine members from the United States Senate, 
nine members from the House of Representatives, and one member each 
from the Departments of State, Defense and Commerce. The positions of 
Chair and Co-Chair rotate between the Senate and House every two years, 
when a new Congress convenes. A professional staff assists the 
Commissioners in their work.

In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that 
reflect the views of Members of the Commission and/or its staff, and 
providing details about the activities of the Helsinki process and 
developments in OSCE participating States.

The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with 
parliamentarians, government officials, representatives of non-
governmental organizations, and private individuals from 
participating States. The website of the Commission 
is: <www.csce.gov>.

                                  (iii)

  

  
 
                         FILM SCREENING OF ``AGE OF DELIRIUM''
                                       ________

                                   July 23, 2013

                                     WITNESSES

                                                                 Page

David Satter, Filmmaker, ``Age of Delirium''....................    1
Kevin Klose, President and CEO, Radio Free Europe/Radio Liberty.    2

                                  PARTICIPANTS 

Kyle Parker, Policy Advisor, Commission on Security and 
                                    Cooperation in Europe.......    1

Paul Carter, Senior State Department Adviser, Commission on 
                  Security and Cooperation in Europe............    4

                                   (iv)
                                   
                                   
                                   
                   FILM SCREENING OF ``AGE OF DELIRIUM''

                          ------------

                          July 23, 2013

                     Commission on Security and Cooperation in Europe
                                                       Washington, DC



    The briefing was held from 2:30 to 5:04 p.m. EDT in 210 
Cannon House Office Building, Washington D.C., Kyle Parker, 
Policy Adviser, CSCE, presiding.
    Mr. Parker. I'd like to welcome you all on behalf of 
Helsinki Commission Chairman Senator Cardin and Co-chairman 
Representative Chris Smith and all of our leadership to today's 
screening of ``Age of Delirium.''
    We have a full length film ahead so I want to jump in and 
get this going right quick. We are pleased to be joined not 
only by my good friend and renowned Russian scholar David 
Satter, the filmmaker, but as well by Kevin Klose, President 
and CEO of RFE/RL, and my colleague Paul Carter from the 
Department of State. So we'll hopefully have a rich discussion 
following the film. I encourage you all to participate.
    This is an on-the-record event and will produce a 
government transcript. And hopefully, following the film, there 
will be no shortage of topics to discuss.
    There's handouts outside, bios and a few select articles. 
Our filmmaker, David, who I'll turn it over to in a minute to 
introduce his work, is really one of the deepest thinkers on 
Russia, he gets beneath the surface; has worked Russia for 
decades, was FT's correspondent--I think his seriousness comes 
across in the film. He's also a scholar at the Hudson Institute 
and a consultant to Radio Free Europe/Radio Liberty. David 
produces incredible scholarship on Russia. And there's a piece 
out there from, I believe, 2008, called ``Obama and Russia.'' I 
read it on the way over and it could have easily been written 
yesterday as well as the piece from today on the Navalny trial, 
which I assume an audience like this has read plenty about.
    Without any further chatter, let me turn it over to David. 
And David, if you could say a few words about the film, and 
then we'll push play, and jump into the discussion following 
the movie.
    Mr. Satter. Well, thank you, Kyle.
    The film is based on the first book I wrote about Russia, 
which is ``Age of Delirium: The Decline and Fall of the Soviet 
Union.'' A copy of the book is outside on the table, if anyone 
wants to take a look at it.
    That book was the product of my six years as the Moscow 
correspondent to the London Financial Times, during which, by 
the way, I worked closely with another correspondent, my 
friend, Kevin Klose, who at that time was the Moscow 
correspondent of the Washington Post. After the book was 
written, there were people who read it and said that it should 
be a film. And through a very circuitous route, I managed to 
complete it.
    A friend of mine who works in opera said that in any 
production, the world has to come to an end three times before 
the production is complete. Well, with this, the world came to 
an end considerably more than three times. But we actually got 
it done.
    We also have here the person who more than anyone else was 
responsible for the fact that it didn't end in a total disaster 
and was actually--became a finished film. That's my friend, 
Nenad Pejic from Radio Liberty, who is sitting next to Kevin 
there and whose good judgment and support in a critical time--
in fact, every would-be artist needs someone who has good 
judgment. And Nenad has good judgment and saved the whole thing 
by lending it his support.
    Well, I think that we should at this point watch the movie 
and not waste a lot of time on my talking to you, because after 
it's over, I hope we can talk about the film and what it means 
about history and for history and its implications for the 
present day because Russia continues to be important. The 
countries of the former Soviet Union could . . . their fates 
continue to have an impact on us. So without further ado, 
perhaps we can start the film.
    Mr. Parker. Enjoy the movie.
    (Movie plays.)
    Mr. Parker. Thank you all. We're going to rearrange here in 
just a minute, pull the podium out and begin our discussion. 
When we move to Q&A, since we are transcribing the event, I'll 
ask you to state your name and be clear so we can get it into 
the record.
    Mr. Satter. I think I'll add that Kevin, unfortunately, has 
to leave for another engagement. So maybe he can say a few 
words first.
    Mr. Parker. Of course. And as I mentioned at the outset, 
we're honored to be joined by Kevin Klose. I didn't go too much 
in depth into his long and impressive bio at the beginning, but 
he's the present and past president of RFE/RL, a 25-year 
veteran of the Washington Post, former president of NPR, 
director of the International Broadcasting Bureau at the U.S. 
Information Agency. Kevin is also a professor of journalism at 
the University of Maryland, a Russia scholar, author of 
``Russia and the Russians: Inside the Closed Society.''
    We are really pleased to have you here. It would be great 
if you could kick off our reaction, share your impressions, 
perhaps an anecdote from your days with David working the 
Soviet beat.
    Mr. Klose. Kyle, thank you very much. It's an honor to be 
here, first of all with you all, here in this great hearing 
room. And it's also a great honor for me to be here again with 
David Satter.
    We've known each other since we met completely by 
serendipity in the newsroom of the Washington Post in 1967. 
That's quite a bit of time ago. We've had a lot of time 
together since then, and I'm very pleased to say he's now a 
consultant to Radio Free Europe/Radio Liberty as we work with 
the Russian Service and the 27 other language services to bring 
us firmly into the digital age, the age of multimedia.
    This film of David's to me is tremendously powerful, not 
just about the past but about what we face going forward in 
dealing with the aftermath of the collapse of the Soviet Union, 
which is not, obviously, anywhere near its end. The radios that 
I'm now part of once again deal with these kinds of issues in 
the present day in the same way as we see it here today.
    There are millions upon millions of people in the former 
Soviet Union who know things about what had happened in the 
immediate past, that unless these realities are brought forward 
and others can hear them, unless they can be borne witness to 
across the societies in all their variations and cultures, the 
future is going to be very perilous for them. I believe for the 
national security interests of all the democracies.
    We are not immune to the issues that still need to be 
addressed in that part of the world. And there is no reason for 
us--no rational reason for any of us here today, drawn together 
to look at this film, which is a witnessing of the past, but 
the power of it is in the present. The moral of this tale is we 
must understand what has happened. We must dig deep, as deep as 
we can.
    As a friend of David's and a great admirer of his work, I 
honor him for the work he's done to bring this forward in such 
a powerful and irresistibly persuasive way.
    Those are the remarks I have. David, thank you.
    Mr. Satter. Well, thank you, Kevin. Perhaps just before 
Kevin goes, does anyone want to ask maybe one question directed 
to him, because he actually has a crowded schedule and has to 
leave us--we'll then I hope entertain questions from all--on 
all subjects, about the film, about the fall of the Soviet 
Union, about Russia today, anything you want to ask or anything 
you're interested in.
    Mr. Parker. We have a mic here if anyone has a question for 
Kevin Klose before he has to leave us.
    Mr. Klose. I'm sorry. I should footnote that I spend most 
of my time now in Prague, which is where Radio Free Europe/
Radio Liberty is headquartered. My time in Washington is 
relatively short, and so I'm really apologetic for having 
agreed to be here with you and then finding that my schedule is 
not going to let me do that. I want to thank you all for coming 
and the questions you have.
    Mr. Satter. There is a question in the back. Yes.
    Mr. Parker. Please.
    Questioner. Can I use the mic?
    Mr. Parker. Sure. That would be great.
    Questioner. Hi. I'm Shelly Han with the Helsinki 
Commission.
    Mr. Satter. Hi.
    Questioner. I was interested in hearing--please excuse my 
ignorance if this is something that's obvious--but what is your 
agency doing to help document what happened and perhaps 
creating that record and sharing that record with the citizens?
    Mr. Klose. That's a very good question. As you may know, 
we're a private, non-profit private corporation formed in the 
early 1950s. We're a grantee of the U.S. government and we're 
an independent source of uncensored news and information into 
the region of the former Soviet Union and parts of Eurasia.
    First of all, prior to my return to the radio's management 
in the immediate past, support the production of this 
documentary and we assisted David with a great deal of 
technical support and production support, which is also a 
matter of creativity and intellectual continuity to bring 
hundreds of hours of tape that he has of his interviews.
    For us, directly, I can tell you, for example, just in the 
past week, we were able to do live video from the courtroom 
where Navalny was first convicted and handcuffed and marched 
off to detention and the next day released in the same 
courtroom in Kirov, 1,000 kilometers from Moscow where there 
were demonstrations--they weren't huge but they were tense--on 
the streets of Moscow. We were there also with live video 
coverage, fully uncensored and fully made available to anyone 
who wished to use the content, which I will say to you was used 
in part by some independent minded Moscow television channels, 
which cut away to take live coverage and fully credit Liberty, 
Radio Liberty's Russian service for bringing this to them. They 
were not covering it themselves.
    In addition more than a dozen services at Radio Free 
Europe/Radio Liberty also used live excerpts and produced 
excerpts afterwards to put out to their listeners, their 
viewers, their readers and their Internet interlocutors.
    I think that's the wave of the future. This is attesting 
and bearing witness to history being made today. We do that 
very powerfully. Thank you.
    Mr. Parker. Thank you, Kevin, again for joining us today. 
And our hats are off to you and all your colleagues at Radio 
Free Europe/Radio Liberty for covering this important part of 
the world so well. The coverage is superb. The coverage has 
been indispensable. And it's something I look forward every 
morning, to the e-mails and the updates and the news stories 
that are posted on the site, really top-notch journalism.
    Mr. Klose. Thank you so much. It's a delight to be here. 
And forgive me. I beg your pardon.
    Mr. Parker. Thanks again.
    Mr. Klose. Thank you. David, congratulations.
    Mr. Parker. Before moving on, jumping into questions, I'd 
like to introduce our lead discussant, Paul Carter, who is 
currently serving as senior State Department adviser at the 
U.S. Helsinki Commission.
    We'll be losing Paul in just a few short days. He'll be 
headed off to be the Director for Eurasia at the Assistance 
Office of the European Bureau at the Department of State. It's 
been a great year with Paul, he's really been an incredible 
asset to the commission. Paul has served in a number of 
interesting postings.
    Most relevant for our discussion today is his service at 
Embassy Moscow as well as at the Department's Ukraine desk. And 
reaching back further into the past, in the mid-'80s, Paul was 
an exchange student, one of two American political scientists 
studying at Moscow's State University in 1985 and '86, where 
Paul began work that ended up as a book published on the 
ideology of Mikhail Suslov. So Paul is uniquely credentialed to 
help kick off our discussion today. Paul, will you take it from 
here?
    Mr. Carter. Thank you very much, Kyle. It is really an 
honor to be here with David for the showing of his film. What 
year was the film made, David?
    Mr. Satter. From 2006 until 2011, on and off.
    Mr. Carter. OK. I think it's a fascinating film. It really 
captures the sadness, the sometime horror and the always 
surreal quality of life in the Soviet Union.
    As Kyle mentioned, I was an IREX exchange scholar in 1985-
86; lived at Moscow State University, you know, the Stalin-
scraper there in Moscow, and lived with the Soviet students and 
our other exchange scholars.
    I always thought that, in so many ways, if one never lived 
in the Soviet Union or in a communist country, it's not 
something one can fully understand. It's something one must 
live through to see what it's about.
    Now, David's film today, of course, offers a glimpse into 
that world--and the many people who testify and speak from the 
heart and from their own experience about what life was like, 
he captures it in so many different ways.
    What's great for me is his approach to the ideology and to 
show it from so many different angles. My own academic work 
also was an approach at this but more from the top-down, as it 
were.
    We saw many times in the film people talking about the 
ideology. Marxism-Leninism was in many ways a form of an ersatz 
religion, and I think we see that captured here. The Soviet 
Union was what we might call an ``ideocracy,'' a system based 
on an ideology. We never really used to hear that much about 
the model of ideocracy back during the Soviet period when 
people were studying it in the West. A few scholars touched on 
this, but it wasn't widely accepted. Partly that was due to the 
fact that leftist scholars, Marxists, didn't want to accept the 
USSR as a legitimate version of Marxism.
    And for others, it was a question of their focus on the 
question, did they believe the ideology or not? Many people 
would answer, no, they didn't believe it.
    The real question though isn't really did they believe it 
or not because we don't know what the leadership at the time 
believed. We don't know what people like Brezhnev and Suslov, 
when they looked at the mirror at 3 o'clock in the morning, 
what did they really say to themselves?
    More important was the question what role did the ideology 
play? And people, whether they've had an emotional attachment 
to it or psychological, the fact is that they had to act as if 
they believed.
    In the end, the leadership lost the will to enforce that, 
to force people to act as if they believed. My own work, as 
Kyle said, was on Suslov, the chief ideologist of the party. 
Suslov died in January of 1982. Brezhnev died in November, 
eleven months later. I have argued that when Suslov died the 
ideology went with him. Suslov was the last enforcer who 
ensured people acted as if they believed in the ideology. After 
that, Gorbachev came in.
    Gorbachev began to change the perspective and came up with 
the idea of reformed communism. I think Gorbachev himself was 
very deeply affected by Chernobyl and the fact that he wasn't 
getting information at the time. I was in Moscow when Chernobyl 
went up and we watched happy pictures on television of 
Ukrainian farmers plowing the fields and putting in the crop, 
you know, for a week, even though we were hearing on the short 
wave that the cloud of radiation was going all over the place. 
I think that Gorbachev himself was a victim of that big lie and 
didn't get that information. That influenced him to introduce 
the idea of glasnost, after which began a freer flow of 
information.
    Then the system began to crumble. Molotov, one of Stalin's 
men, once said that there's a reformed communism and then 
there's real communism. Indeed, there's really no such thing as 
a reformed communist. It can't survive and it fell apart. And 
in the end, it did. It collapsed, as David showed so well in 
his film.
    Two takeaways from this that I see. One, as Kevin Klose 
talked about, was the overcoming of the Soviet legacy. Of all 
the things that the communists did to Russia, the terror, all 
the people that died, what they did to the economy, all these 
things, but the one lasting thing was the moral decay of the 
society.
    The communists taught that there was no God, there was no 
religion, there was no morality other than what the party said. 
And eventually, that deteriorated into every person must kill, 
lie, cheat, steal, whatever to get along. And that legacy is 
very hard to overcome. It survives for many, many years. And 
Russia has not had an accounting, of a laying bare of the 
Soviet past. We still see people today who praise Stalin or 
look back with nostalgia on the Soviet era without having a 
real accounting of what happened.
    But also, there is another lesson, not only for Russia 
itself, you know, to come to terms with these things, but also 
a lesson for the world. And that for me is the danger of 
ideology and ideological thinking. I really thought that when 
the Soviet Union collapsed that we would see the end of that 
kind of ideology and people being subject to that.
    I think we have in the sense of these grand systems, of 
Marxism, etc., but yet, even today, in our own society, 
oftentimes people fall into ideological thinking and are quick 
to rush to judgment on things. And so it's always a lesson, the 
danger of that. The Russians were no different than anybody 
else in the end. And it could happen anywhere. So it's 
something that we have to always be on guard against.
    And with that, I'm going to turn it back over and open it 
up to questions.
    Mr. Parker. Thank you, Paul. Let's open it up wide. 
Everybody's sat patiently, so please step right up with 
questions. Just identify yourself so we have it for the record. 
And also feel free to make a statement. We can be fairly loose 
on this and have some time to have a discussion. Katya, could 
you----
    Questioner. I'll be loud. Is this loud enough?
    Mr. Parker. You know, it might be loud enough. It's just 
that our transcriber is listening through a mic so it's better 
if you come up here.
    Questioner. It's a very different side of the room. Thank 
you. Very interesting briefing or screening.
    I'm sorry, My name is Katya Migacheva. I'm the lead fellow 
on the Tom Lantos Human Rights Commission. In the interest of 
full disclosure, I'm also originally from Russia. Watching the 
film, I realized I'm very lucky to have been born in 1980 so I 
was of conscious age when the changes happened. And I had a 
good time in one system and good time in another system, 
meaning that I had time to be educated in one and time to be 
educated in another, and then, immigration to the United 
States, so all kinds of worlds. So I felt fortunate. I also 
felt very emotional watching the film. I greatly appreciate 
your efforts to dig deeper.
    I have a question for you. You've lived in Russia, it 
sounds like, for a while. You studied Russia for a while--and 
both of you and also the previous speaker as well. In terms of 
your remarks about overcoming this heritage and moving forward 
despite it or with it.
    What challenges do you think Russia has because of these 
challenges . . . in addition or besides the mentality that you 
have to cheat and lie that you just mentioned, which is a whole 
other piece of propaganda, social propaganda when not only the 
survival piece where you have to cheat and lie and tell on your 
neighbor but also the piece when we are all contributing to the 
society. And that was--that was the one that was clearly 
taught. That was the one--that was the clear, clean message, 
not the hidden one. So that part we're losing as well with the 
disintegration of the Soviet Union.
    How do we move forward with the grief of the lost system, 
because for many people, as you know, it's a huge loss? Even 
those who lost their parents and grandparents to the Stalinist 
regime, they still remember the system with nostalgia. I guess 
this is one of your points, we need to reveal these things, but 
also the idea that we need a strong grip. We need a strong fist 
to be able to survive in our society.
    So I'm rambling a little bit, but putting all these things 
together, how do you see Russia moving forward? And how should 
we from the United States, what patience should we have? When 
should we expect results and what type of pressure should we 
apply reasonably?
    Mr. Parker. Thank you, Katya. David.
    Mr. Satter. Thank you, Katya. Actually, the answer is not 
so complicated. The problem with Russia, in my view, after many 
years of being there, is that the individual has no value, and 
particularly compared to the goals of the state.
    Under those circumstances, the idealization of state power 
creates a situation in which individuals are treated as raw 
material for the achievement of political ends. That's the 
reason why everyone cheats and lies because they've been taught 
that their individual identity counts for nothing.
    Into those circumstances, they don't feel a sense of 
individual obligation, of individual conscience, of individual 
identity. They don't believe that their personality is 
important, that they're in some way different, that they're in 
some respects inviolable.
    So, after all, there's no logical reason not to just grab. 
That mentality can only be changed under conditions in which 
Russians and other people who lived in the Soviet Union 
realistically assess their history and abandon myths about the 
past and understand what they've come out of.
    As for the U.S. or for the other countries in the West, we 
can be helpful to the degree that we help to clarify this 
problem, but the difficulty is that very few people in the West 
understand it either. I mean, they don't understand Russia 
because it's hard to extend themselves--it's hard for us, 
members of a pragmatic and a problem-solving society, to 
understand a society like Russia, in which millions of people 
are subordinated to some type of political ideal they don't 
understand.
    So in effect, there's a certain amount of intellectual work 
that has to be done in both places. Most of all, of course, 
it's the responsibility of the Russians themselves to 
understand who they are and what it is. Russians don't 
understand the root of their problem. This is the difficulty. 
They understand that things are bad, but they don't understand 
why they're bad. And the best way to help them is to try to 
show them why things are bad. And the best way they can help 
themselves is to restore the position of the individual. And 
you can only do that if you really honor those who were victims 
of the regime and you face realistically the story of the past.
    Mr. Parker. Thank you, David. We have another question over 
here.
    Questioner. Thank you. My name is Tanel Sepp, I'm from the 
Embassy of Estonia. And I'm going to say you have organized 
this event on a really historic day because 73 years ago then 
acting Secretary of State Sumner Welles made the declaration of 
not recognizing the occupation of the Baltic States. So 
congratulations on this.
    I have a fairly simple question. In your view, what could 
be then the goal of the present Russian leadership? I mean, 
there are so many different variables there. And one thing that 
I absolutely agree with you is this--how we see it is a need to 
overcome the Soviet legacy, but at the same time, sometimes 
this is especially used in ideological terms.
    Mr. Satter. So what is the goal of the Russian leadership? 
What are they after?
    Questioner. Yes.
    Mr. Satter. That's actually a very easy question to answer. 
They're after----
    Mr. Parker. Or what should it be.
    Mr. Satter. Or what should it be is a different story; what 
it is and what it should be. They're after preserving their 
monopoly on power and wealth, and the entire foreign policy of 
Russia is organized on that basis. And they don't have any 
other goals.
    All of their efforts to, you know, resurrect the myth of 
the great Russian state or resurrect the idea of the great 
Russian state is only because they fear that their selfishness 
and their greed will be exposed and they need something to 
convince people that something else is at stake and to distract 
them from the way in which they're misruled.
    Mr. Parker. Please.
    Questioner. Gerald Chandler. I'd like you to follow on 
that. How long will it last? Will it last one election, two 
elections, 25 years?
    Mr. Parker. Thank you, Gerald.
    Questioner. I will repeat the question. I'll state my 
opinion. People get tired of a government. We have Navalny 
there now representing some small fraction of the population 
who are tired of the government. Is it a fraction that is 
bigger than it appears, because there's many, many people who 
don't want to speak up, or how big is it? And how many years 
will it take until another Gorbachev comes along and the whole 
thing collapses?
    Mr. Parker. Thank you.
    Mr. Satter. I don't know--it won't last forever, but it, 
you know--because all of the tendencies toward disintegration. 
The regime is becoming more corrupt, not less. The ruling 
circle has become narrower--is becoming narrower. Positions of 
privilege and power are being passed on to the children of 
those who have them now rather than being opened up for general 
competition.
    The atmosphere in the country is becoming more stifling. 
The level of political repression is becoming greater. At the 
same time, the country is becoming more educated, has more 
experience of the outside world. And a generation has grown up 
that is more capable of functioning in a democratic society 
than possibly any previous Russian generation.
    So under those circumstances, an eventual collision is 
inevitable. When it will happen and under what circumstances is 
hard to predict. It will depend on many factors. But this 
regime, by virtue of its sheer greed and the many, many crimes 
and secrets that it conceals, cannot last indefinitely, and 
those people in power would like to rule forever, but they 
won't be able to.
    Mr. Parker. Please jump in, Paul.
    Mr. Carter. Yeah. If we can borrow a term from the 
Marxists--a question of contradictions here. We saw how the 
Soviet regime took a nation of essentially illiterate peasants 
and created an educated cadre of people, scientists and 
engineers and so on. And eventually, those people came to see 
that the ideology was just simply illogical and that created 
the rot at the core of the system.
    Today, what we see is the growth of the Russian economy, a 
lot of it built on energy and so on, but other industries as 
well, and a new middle class is being created. But that middle 
class, at some point, as David says, they'll become fed up with 
the corruption at the top. And that's what Navalny and others 
are all about.
    This is a very interesting phenomenon to see in the last 
two, three years or so. Before that, if you talked about 
opinion in Russia, you were talking about what's the Kremlin 
thinking about? But in the last two or three years, you've seen 
suddenly this--the streets of Moscow with all these people 
turning out and saying no. They aren't the ones that talk. 
That's not the only opinion. This is our opinion. And they're 
becoming disgusted with it.
    Nobody knows how long change will take. That's the lesson 
of the Arab Spring, of course, that, you know, there's just 
these flash points and then things just spread.
    Now we don't know whether that will happen in Russia. 
People before the Orange Revolution in Ukraine always said that 
the Ukrainians were a lot of sheep. They'll never do anything. 
And then, of course, that just took off. So you never know how 
these things will go. But at some point, the contradictions 
will catch up with them.
    Mr. Parker. Please.
    Questioner. First off, thank you very much for organizing 
this event. My name is Ali Down. I'm just a simple intern with 
the Office of Congressman Robert Brady. My question today is 
what if any aspects of Soviet society or Soviet era mentality 
continue to exist in modern day Russia?
    Mr. Parker. Thank you.
    Mr. Satter. Well, you know, I have a friend in Moscow by 
the name of Vladimir Voinovich. Maybe you've heard of him some 
of you. He's a writer, a satirical writer. He said there's 
nothing left of the Soviet Union except the Soviet man. And the 
problem--there's been tremendous change. I mean, Russia today 
is incomparably freer than the Soviet Union was.
    But the same disregard for the individual, the same notion 
that the fate of a person is really unimportant compared to 
greater goals, the goals of the state, the goals of society, or 
even the goals of those in power who are anxious to accumulate 
wealth, and that's the same as it's always been. Until that 
changes, Russia will never really be free.
    Mr. Parker. Please.
    Questioner. Again, thank you all very much for this. It's 
absolutely fascinating. I'm Peter Hickman. I'm a former USIA 
Foreign Service officer, although I was never in the Soviet 
Union and that part of the world. But my question is hard to 
ask because I think it has a lot of answers but you've all 
touched on it in your answers. Putin made this famous statement 
when Soviet Union collapsed, something to the effect that it is 
the greatest socio-political disaster----
    Mr. Satter. Geopolitical. Geopolitical.
    Questioner. Geopolitical. And people in response to that 
said, no, the greatest geopolitical disaster was the creation 
of the Soviet Union. (Laughter.) But my question is and I think 
you've all answered it in parts, and Mr. Klose as well, what 
was the reaction to that statement at the time in the Soviet 
Union, and how is it today?
    Mr. Satter. In Russia--in Russia, no more Soviet Union----
    Questioner. Well, that's right. I mean, but----
    Mr. Satter. Soviet Union is gone.
    Questioner. Well, are you sure?
    Mr. Parker. Thank you.
    Mr. Satter. Well, nobody reacted much, but the Russian 
leaders love the word ``geopolitical.'' They remind me of 
certain people in our country who also love the word 
``geopolitical.'' They use it constantly about everything, even 
though it has no relationship to anything. They love the word 
because as soon as they start talking about geopolitical, then 
the word ``moral,'' ``ethical,'' ``legal,'' all those other 
words drop out because we're talking about geopolitical--
something real, not all this namby-pamby stuff about obeying 
the law, respecting people, you know, not assassinating them, 
not torturing them, all of which is certainly, has nothing to 
do with the geopolitical interests of this or that.
    And for that reason, when Putin said that the fall of the 
Soviet Union was the greatest geopolitical tragedy of this 
country, he was being completely consistent and all of the 
listeners and the foreign policy apparatus of Russia, at least 
those who don't think much or at least who were, you know, 
anxious to make their careers, and all of their counterparts 
over here thought that, well, that maybe is a reasonable 
statement or maybe there's something to it. Of course, it's 
absolute nonsense.
    But you know, in a sense Putin reflects what happened in 
the Soviet Union. When in a nation in which no one counts for 
anything, the only way in which people are distinguished from 
each other is their level of power. And once a person acquires 
power--first of all, he'll do anything to get it.
    Second of all, once he acquires power, he won't recognize 
any limits on his acquisitiveness. Either his material greed, 
the tactics he's willing to use in order to stay in power, and 
all of this comes from the fact that, you know, a degraded 
individual really can't develop an ethical framework for 
himself, a sense of personal identity and conscience. And 
that's because that was the process to which millions of people 
were subjected in the Soviet Union.
    You know, it's not surprising that if someone like Putin 
becomes president and he acts in a manner that is typical of 
someone who has no moral orientation at all, is just pursuing 
wealth, power, and self-preservation. And if we criticize him, 
we have to recognize the fact that there're millions of other 
people in his place who would--who--in the Soviet Union, who 
have gone through this, who would act in exactly the same way.
    I think that there are nonetheless some encouraging things. 
Mostly the fact that despite all of these pressures, there are 
some people who didn't succumb to them, and there's a growing 
number of people in the Soviet Union, in Russia, other 
countries of the former Soviet Union who, nonetheless, despite 
all this pressure, have developed a moral sense and are willing 
to support and fight for decent values. And I've argued in what 
I've written that it ought to be a principle of American 
foreign policy in dealing with that part of the world to 
support them.
    Mr. Parker. Thank you, David. Your moral clarity is always 
refreshing and sometimes even entertaining.
    Mr. Satter. I try.
    Mr. Parker. Especially your exegesis on the empty word 
geopolitical. I couldn't agree more.
    If I may just share a few reactions. This is my second or 
third time watching the film and a few different things stand 
out. For me, it starts somewhat nostalgic as I see these 
pictures of the '70s because, you know, I married into the 
Soviet family, and so some of those photos of camping and the 
beach during the Brezhnev era, they almost evoke a pleasant 
feeling for a past I only know through pictures and stories.
    Then there's this stark, just gruesome, fearful image of 
this 11-year-old boy on the roof eating weeds in famine-
stricken Ukraine, millions dead. Or as Paul mentioned the 
legacy of Stalin and sort of the glorification of him now in 
certain quarters, and even, perhaps most disturbingly among the 
youth. I guess this runs a little counterintuitive to those who 
naively thought that the Internet or the iPhone or whatever 
modern gadget would somehow bring morality.
    But what to me is even more disturbing, that moment in the 
film when Shatravka--when he confronts the nurse. It's two 
Russias staring each other in the face and looking completely 
past each other. And to me this is all the more disturbing for 
its insidiousness. It's hidden. This nurse doesn't even 
understand what he's talking about. She can't grasp the depth 
of pain in Shatravka who's essentially confronting the killer 
of his brother, a woman who might be a neighbor who is free, 
just walking around. Again, David, your commentary in the end 
about how are these people to be held to account, about what is 
appropriate, just.
    I remember my own confusion up in Arctic Russia where I 
spent some time in Vorkuta, in Ukhta, which was essentially a 
big prison camp. And I asked questions, again, to people like 
that nurse, and they couldn't even understand. Others, of 
course, were happy to tell about the rehabilitation of their 
relatives and share their files. But those people who didn't 
understand, who remembered, but weren't moved--I guess for me 
it's confusing.
    So David, this is my question to you, the truth is 
available in Russia and it is not the 1930s. And yet, it 
isn't--in some areas, it really isn't very good and in some 
areas you can even attempt to draw certain moral comparisons. I 
think back to the 1999 apartment bombings, which many and 
serious people believe were orchestrated by the regime as the 
pretext to start the second Chechen war, the rise of Putin, the 
underpinnings of the modern Russian state, which was most 
recently our reset partner, though I guess we don't use the 
term. We do seem to have stuck largely to the policy though.
    We're talking here about deliberate murder of hundreds of 
Russians in their sleep. And I'm not prepared to say it 
happened that way, but I know there are very serious people 
who've examined the evidence and the fact is it remains a big 
open question. Does this not approach something of the morality 
of the 1930s and the willingness to commit such crimes.
    My question is why wasn't this truth that is out there if 
you looked for it more powerful? You can find books and you can 
read these things, and it almost seems to have lost its power. 
Why wasn't it the cleansing wave that washed everything away 
and made everything anew?
    Mr. Satter. Yeah. Well, first of all because it was partial 
and it was basically used--the truth in Russia was used for 
political purposes. In the late '80s, people were fascinated by 
history and anxious to learn the truth about history when it 
could be used as a weapon against the old regime, which was the 
communist regime.
    Once that regime fell, independent interest in 
commemorating the victims or investigating the past almost 
disappeared. In the late 1980s, there were pedestals and 
plinths established all over Russia, in Russian cities, saying 
on this site there will be a memorial to the victims of 
Stalinism, the victims of communism. Now there's nothing left, 
just the pedestals, just the plinths. The memorials were never 
built.
    As far as the apartment bombings are concerned, I'm one of 
those who, as you may or may not know, who has argued that, in 
fact--and I believe the evidence in reality is overwhelming, 
that it was through an act of terror that Putin came to power. 
And that's not the only act of terror. What about the decision 
to open fire with heavy weapons on the children who were the 
hostages in Beslan in 2004, or the decision to pump a theater 
with 1,000 hostages full of lethal gas without making any 
effort really to prepare to rescue the victims?
    It all stems from the same thing, that the individual just 
doesn't count for anything. And in particular--and he is 
particularly insignificant compared to the goals of the regime. 
So therefore, if it's necessary--of course, we are not dealing 
with a situation such as that, which existed in 1937, nearly a 
million people were shot straight out, and another--well, it 
was 700,000 and then another equal--were shot--and roughly the 
same number were arrested and sent to labor camps, where they 
quickly died.
    It's not that scale, but the situation could, given that 
mentality, become very bad in the future. Right now, the regime 
is not seriously threatened, but as the situation deteriorates, 
given that mentality, anything is possible.
    Mr. Parker. Thank you. I certainly don't mean to draw a 
direct comparison to the sheer numbers of murder victims of the 
1930s. I guess to me, though, to avoid the danger of 
proportionalism, the notion that a person who kills 1,000 is 
much worse than the person who's prepared to kill 100--
certainly, in terms of the sheer volume of human suffering 
visited on the people. But the willingness to cross those 
lines, the notion that the person is not important enough, a 
means not an end that can be sacrificed for other goals.
    I've mentioned just how profound--and it's on great display 
here today--David gets on Russia. You know, when I'm not 
reading David's work or maybe Leon Aron's work, I often find 
myself reading our very own Librarian of Congress, Jim 
Billington, himself a renowned Russia historian and scholar. I 
brought along his book from--I don't know, maybe it's already 
about a decade ago, ``Russia in Search of Itself.''
    This passage comes to mind as relevant to our discussion. 
I'll read it into the transcript as perhaps an appropriate way 
to end, maybe on a dark note, an acknowledgement that there's 
no easy answer. Dr. Billington's talking here about denial and 
this painful history. ``The only part''--he says, and I quote--
``the only part that has been fully acknowledged and honored by 
public monuments is the suffering caused by foreign foes. Yet 
just as much suffering was inflicted on them by themselves, and 
over a longer period of time.
    ``This condition of denial impacts on a society in ways 
that can never be understood, let alone remedied, by roundtable 
discussions--even those that may someday be convened after all 
the mass graves and buried documents have been unearthed. Words 
alone will never provide a roadmap into a happy future for 
those who once thought they stood on a mountain. They now know 
there is no easy way out of their valley and that the shadow of 
massive, innocent death still hangs over it.'' End quote.
    These are haunting words and capture the difficulty of this 
moment where the people of Russia find themselves and how to 
deal with this shameful, ugly, confusing and not even fully 
known past. And so we add yet another roundtable discussion, as 
it were, to this attempt.
    It's 5 o'clock comrades, and everybody looks a little 
tired. So I think I'll wrap it up.
    Again, I want to thank you all for coming and 
participating. I want to especially thank Jackie Cahan, who 
helped David and I to put this event together. I also suggest 
to all of you to keep an eye on our website. We have other 
interesting events coming up. We'll take a little bit of break 
in August, as it's customary up here on the Hill, but should 
have a robust program in the fall, particularly on Russia.
    I hope we'll finally have a serious Russia hearing and as 
well other briefings. One we have planned is a survey of U.S.-
Russian relations over the centuries. This should provide an 
interesting perspective here in Congress on the hills and 
valleys and understand what we've seen before and where we've 
been before in this important relationship with Russia.
    With that, I close the record and thank you all for coming.


                           [all]




                                     

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
